Georgia United Credit Union
PO Box 100070
Duluth, GA 30096-9370
888.493.4328
www.gucu.org

CREDIT CARD DISCLOSURE
INTEREST RATES and INTEREST CHARGES:
VISA PLATINUM
Annual Percentage Rate (APR) for
Purchases

1.99% Introductory APR for 12 billing cycles. After that, your Standard APR will be
10.24% to 22.99% based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.

APR for Balance Transfers*

1.99% Introductory APR for 12 billing cycles if the balance transfer is made within 90 days of account
opening. After that, your Standard APR will be 10.24% to 22.99% based on your creditworthiness. This
APR will vary with the market based on the Prime Rate.

APR for Cash Advances

12.24% to 24.99% based on your creditworthiness. This APR will vary with the market based on the
Prime Rate.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge you interest
on purchases if you pay your entire new purchase balance by the due date each month. We will
begin charging interest on cash advances and balance transfers on the date the cash advance or
balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of
the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account:
- Annual Fee:
- Application Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:
Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

None
None
None
2% of each transaction that is greater than $2.00
1% of the US Dollar amount of each transaction made in a foreign currency or made in US Dollars
that is processed outside the United States.
Up to $25.00 if your payment is late 10 days or more
None
Up to $25.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the standard APR disclosed above if you make a late payment.
*Introductory Rate is available only for balance transfers made within 90 days of account opening. Introductory Rate does not apply to
balances transferred from other Georgia United Credit Union credit cards or loans.
Other Fees: In addition to the fees disclosed above, the following fees may be imposed:
Card Replacement Fee:
$10.00
Skip-A-Pay Fee:
$25.00
Expedited Card Fee:
$50.00

page 1 of 1

